Risk Assessment of Major Functions Within
USAID/Guatemala
Report No. 1-520-03-002-S

October 1, 2002




                  San Salvador, El Salvador
             RIG/San Salvador




             October 1, 2002


             MEMORANDUM

             FOR:               Acting USAID/G-CAP Director, Deborah Kennedy-Iraheta

             FROM:              RIG/San Salvador, Timothy E. Cox

             SUBJECT:           Risk Assessment of Major Functions Within USAID/Guatemala
                                (Report No. 1-520-03-002-S)

             This memorandum is our report on the subject risk assessment. This is not an audit
             report and does not contain any formal recommendations for your action.

             Thank you for providing comments to the draft report. Your comments are included
             in Appendix II of this report.

             Once again, I appreciate the cooperation and courtesy extended to my staff during the
             risk assessment.



Background   The USAID mission in Guatemala consists of a bilateral program to address
             development challenges within the country and a regional program to implement
             activities throughout Central America.

             Strategic objectives under the bilateral program include 1) More Inclusive and
             Responsive Democracy, 2) Better Educated Rural Society, 3) Better Health for
             Women & Children, 4) Increased Rural Household Income and Food Security, 5)
             Improved Natural Resource Management and Conservation of Biodiversity, and 6)
             Support the Implementation of the Peace Accords. The approximate fiscal year
             2002 and 2003 funding levels, in millions, for these functions are presented in the
             following table.




                                                                                                  1
       Bilateral Program Functions                FY 2002        FY 2003

       Democracy                                     $ 3.0          $ 2.2

       Education                                       2.8             3.8

       Health                                         15.5           11.7

       Income                                         19.3           23.5

       Environment                                     4.0             3.5

       Peace                                          10.3             7.5

                                                     $54.9          $52.2


The regional program has four objectives: 1) Increased Central American
Competitiveness in Global Markets, 2) Improved Environmental Management in
the Mesoamerican Biological Corridor, 3) Enhanced Central American Capacity to
Respond to the HIV/AIDS Crisis, and 4) Rural Diversification. The approximate
fiscal year 2002 and 2003 funding levels, in millions, for these functions are
presented in the following table.

       Regional Program Functions                  FY 2002        FY 2003

       Environment                                    $ 6.8         $ 11.7

       Trade (Competitiveness)                          2.8             7.3

       HIV/AIDS                                         4.0             6.8

       Rural Diversification                            6.0             5.8

                                                      $19.6          $31.6

The U.S. General Accounting Office (GAO) noted in Standards for Internal
Control in the Federal Government (November 1999) that internal controls should
provide reasonable assurance that USAID objectives are being achieved,
operations are effective and efficient, and assets are safeguarded. Conducting risk
assessments is one technique identified by the GAO to enhance internal controls.

The purposes of the risk assessment were to assist the Regional Inspector General
in planning future audits and to identify opportunities for improvement in


                                                                                    2
             USAID/Guatemala operations. Our scope and methodology are presented in
             Appendix I.



Discussion   In judging the risk exposure for the major functions in USAID/Guatemala, we
             considered:

             •   the amount of funding the individual functions receive relative to the overall
                 mission budgets (see Background section for details of the mission’s $54.9 and
                 $19.6 million fiscal year 2002 budgets for bilateral and regional programs,
                 respectively),

             •   the level of U.S. interest in the program activities,

             •   the level of involvement and/or support provided by the Government of
                 Guatemala,

             •   the experience of key staff members in their area of expertise as well as in
                 Guatemala,

             •   incidences of improper administration or material weaknesses (if any) noted in
                 prior reviews and/or as reported by mission officials,

             •   management support for internal controls, and

             •   the level of risk inherently present in an activity that program or administrative
                 objectives will not be met.

             Our risk assessment of USAID/Guatemala covered twelve bilateral, regional, and
             administrative functions. Because the bilateral program function “Support the
             Implementation of the Peace Accords” is implemented through the activities of
             several strategic objective teams, we evaluated peace activities in connection with
             related strategic objective functions. We did not evaluate the regional program
             “Rural Diversification” because the activity design had not been completed. We
             judged two functions to have a “high” risk exposure, five functions to have a
             “moderate” risk exposure, and five to have a “low” risk exposure. These
             judgements are discussed in the following tables.




                                                                                                   3
Bilateral Program Functions

                  Function Description                        Risk Exposure
Democracy – Criminal justice system improvements,                 High
citizen participation in political decision making, and
local government capacity enhancement

                            Risk Assessment Factors

•   With planned fiscal year 2002 and 2003 funding levels of approximately $3
    million and $2.2 million, respectively, the function is a less significant
    portion of the USAID/Guatemala portfolio when compared to the funding
    levels of other mission functions.

•   Activities are implemented through contracts, task orders, and cooperative
    agreements with Checchi and Company, Creative Associates, and Research
    Triangle International.

•   Activities are heavily dependent on the political will of the Guatemalan
    government for success. That commitment is variable.

•   The implementation environment is difficult. Democratic institutions are
    inexperienced. Democratic principals and traditions are developing.

•   Office has experienced managers and staff.

•   Management monitors activities through review of annual work plans,
    periodic progress reports, and site visits.



                 Function Description                         Risk Exposure
Education – Access to education services in target              Moderate
areas and educational policies to enhance gender
equity and cultural pluralism

                            Risk Assessment Factors

•   With planned fiscal year 2002 and 2003 funding levels of approximately $2.8
    million and $3.8 million, respectively, the function is a less significant
    portion of the USAID/Guatemala portfolio when compared to the funding
    levels of other mission functions.




                                                                                 4
Education (continued)

•   Main activities are implemented through cooperative agreements with World
    Learning, the University Rafael Landivar, and Education Development
    Center Incorporated, and through task orders with the American Institutes for
    Research and with Management Systems International. The mission has a
    Strategic Objective Grant Agreement with the Ministry of Education.

•   Office has experienced managers and staff.

•   Management performed or contracted mid-term evaluations of selected
    implementers and made changes to the function based on the findings.

•   Management monitors activities through review of annual work plans,
    periodic progress reports, and site visits.

•   Management and performance data is collected by an independent
    organization.



                 Function Description                           Risk Exposure
Health – Quality of maternal-child health services in             Moderate
rural areas and management of public health programs

                             Risk Assessment Factors

•   With planned fiscal year 2002 and 2003 funding levels of approximately
    $15.5 million and $11.7 million, respectively, the function is a significant
    portion of the USAID/Guatemala portfolio.

•   Activities are implemented through task orders, grant agreements, and
    cooperative agreements. Main implementers include University Research
    Corporation, La Asociación Pro-Bienestar de la Familia de Guatemala
    (APROFAM), and John Snow International. The mission also has a
    Strategic Objective Grant Agreement with the Ministry of Health.

•   Activities include technical assistance, field support of USAID contracted
    activities, and donated commodities.

•   Office has experienced manager and staff.

•   Management performed or contracted mid-term evaluations of selected
    implementers.



                                                                                   5
Health (continued)

•   Management monitors activities through review of annual work plans,
    periodic progress reports, and site visits.

•   Management and performance data is collected by an independent
    organization.



                 Function Description                           Risk Exposure
Income – Production and marketing for small farmers,                High
micro-entrepreneur businesses, economic activity, and
family nutrition

                             Risk Assessment Factors

•   With planned fiscal year 2002 and 2003 funding levels of approximately
    $19.3 million and $23.5 million, respectively, the function is a significant
    portion of the USAID/Guatemala portfolio.

•   Activities include P.L. 480 Title II (Food Aid). The approximate funding
    levels for fiscal year 2002 and 2003 are $15.8 and $18 million, respectively.

•   Abt Associates was hired to evaluate monitoring and data quality.

•   The mission works directly with the Ministry of Agriculture on a fixed
    amount reimbursable basis on some construction activities. Other activities
    include technical assistance.

•   Implementing organizations perform yearly program evaluations.

•   Office has experienced managers and staff.

•   Management monitors activities through review of annual work plans,
    periodic progress reports, and site visits.




                                                                                    6
                   Function Description                           Risk Exposure
Environment – Resource management in selected                          Low
bio-regions, policies affecting the environment, and
institutional strengthening

                             Risk Assessment Factors

•   With planned fiscal year 2002 and 2003 funding levels of approximately $4
    million and $3.5 million, respectively, the function is a less significant
    portion of the USAID/Guatemala portfolio when compared to the funding
    levels of other mission functions.

•   Main activities are implemented through indefinite quantity contracts (IQCs)
    with Chemonics and with International Resources Group and through a
    funding transfer to USAID/Washington for The Nature Conservancy.

•   Activities are primarily technical assistance and training.

•   Office has experienced staff. However, the team leader position is vacant.

•   Management monitors activities through review of annual work plans,
    periodic progress reports, and site visits.



Regional Program Functions

                  Function Description                            Risk Exposure
Environment – Improved protected area                               Moderate
management, expanded market access for
environmentally sound products and services,
harmonized environmental regulations, and increased
use of less polluting technologies

                             Risk Assessment Factors

•   With planned fiscal year 2002 and 2003 funding levels of approximately $6.8
    million and $11.7 million, respectively, the function is a significant portion
    of the USAID/Guatemala portfolio.

•   Activities require interaction with high level leaders of several Central
    American countries. As such, the function is considered high profile and
    sensitive.



                                                                                   7
Environment (continued)

•   Activities are implemented through task orders, grant agreements,
    cooperative agreements, and U.S. interagency agreements. Main
    implementers include Associates in Rural Development, The Nature
    Conservancy, the U.S. Environmental Protection Agency and the General
    Secretariat of the Central American Integration System.

•   The mission is planning a $5 million grant program to implement field
    activities as well as build the capacity of local implementers. Under the
    program, sub-grants will be limited to $80 thousand per recipient. This
    activity is expected to be management intensive.

•   Funding is obligated through an agreement with an association of ministers
    from several Central American countries.

•   Office has experienced managers and staff.

•   Management monitors activities through review of annual work plans,
    periodic progress reports, and site visits.



                Function Description                              Risk Exposure
Trade (Competitiveness) – More open trade and                          Low
investment policies, accelerated market integration,
and more equitable and efficient labor markets

                             Risk Assessment Factors

•   With planned fiscal year 2002 and 2003 funding levels of approximately $2.8
    million and $7.3 million, respectively, the function is an increasingly
    significant portion of the USAID/Guatemala portfolio.

•   Funding is obligated through an agreement with an association of ministers
    from several Central American countries called the Secretariat for Central
    American Economic Integration (SIECA).

•   Main activities are implemented by SIECA.

•   Activities are primarily technical assistance and training.

•   Office has experienced managers and staff.



                                                                                  8
Trade (continued)

•   Management monitors activities through review of annual work plans and
    periodic progress reports.


                 Function Description                          Risk Exposure
HIV/AIDS – Appropriate policies and strategic plans,             Moderate
improved prevention, support systems, and other
services, and condom social marketing

                             Risk Assessment Factors

•   With planned fiscal year 2002 and 2003 funding levels of approximately $4.0
    million and $6.8 million, respectively, the function is a significant portion of
    the USAID/Guatemala portfolio.

•   Main activities are implemented through cooperative agreements with the
    Academy for Educational Development and Population Services
    International.

•   Primary activities are in disseminating information and in social marketing.

•   Office has experienced managers and staff.

•   The function is monitored and evaluated by an organization independent of
    implementation.

•   Management monitors activities through review of annual work plans,
    periodic progress reports, site visits, and surveys.



Administrative Functions

                 Function Description                          Risk Exposure
Contracting Office – Contract negotiation, contract                 Low
drafting, and contract management services

                             Risk Assessment Factors

•   Contracting functions are considered significant and sensitive.




                                                                                   9
Contracting Office (continued)

•   A procurement planning process exists and is monitored. However, the
    process has not been documented.

•   Cognizant technical officers (CTOs) have not completed the CTO training
    series.

•   USAID/Guatemala implements some activities through associations of
    Central American governments (see Regional Program Functions for
    Environment and for Trade). USAID procurement policy is not defined for
    these types of organizations.

•   Contracting office has experienced managers and staff.

•   Procedures for review and clearances are documented.

•   Agreement clauses are reviewed for compliance with Federal Acquisition
    Regulations.

•   Contracting office personnel are members of activity teams.



              Function Description                           Risk Exposure
Program Office – Coordination of budget and annual                Low
reporting

                            Risk Assessment Factors

•   Operations are structured with oversight from USAID/Washington and
    mission management.

•   Program office has experienced managers and staff.

•   Procedures for review and clearances are documented.

•   Staff responsibilities are documented.

•   Program office personnel are members of strategic objective teams. They
    participate in meetings and make site visits.




                                                                              10
                 Function Description                         Risk Exposure
Executive Office – General services, information                Moderate
systems, personnel, procurement, maintenance, motor
pool, and property management

                            Risk Assessment Factors

•   We judged the function to have a high level of inherent risk due to the high
    number of regulations and procedures that must be followed in performing
    functions.

•   Executive Office has experienced managers and staff.

•   USAID Office of Procurement evaluated the Executive Office in 2000. No
    issues were noted.

•   USAID Information Resources Management reviewed information systems
    security at the mission in 2001. According to Executive Office management,
    USAID/Guatemala is implementing the recommendations from the review.

•   Information systems contingency and security plans have been developed.

•   Inventory is counted annually, and an automated inventory system has been
    installed for non-expendable inventory. Expendable inventory is tracked
    manually.

•   Vehicle usage reports are prepared monthly.



              Function Description                            Risk Exposure
Financial Management Office – Accounting,                          Low
voucher payment, and financial analysis

                            Risk Assessment Factors

•   The Financial Management Office (FMO) has experienced managers and
    staff.

•   FMO personnel support strategic and special objective teams.

•   Business duties are segregated between individuals. Segregation of
    accounting duties is enforced by information system controls.




                                                                                   11
 Financial Management Office (continued)

 •   The office tracks and receives audits of non-U.S. recipients as required under
     USAID policy.

 •   Staff performs reconciliations, pre-award surveys, and financial analyses.


During the course of the risk assessment, we noted a number of formal and
informal procedures that were incorporated by USAID/Guatemala to manage its
programs. We are making, based on our conversations and limited review of
mission documentation, the following suggestions for mission management to
consider. These are not formal audit recommendations. The suggestions do not
necessarily represent deficiencies but describe possible improvements or
enhancements to activities already in process.

•    USAID policy requires non-U.S. recipients who spend more than $300,000 in
     a year to receive a financial audit. In some cases, these recipients may receive
     less than the threshold in a year but over several years may still spend a
     significant amount. Likewise, an audit may be justified based on non-
     financial implementation risks facing the recipient. USAID/Guatemala could
     consider whether sub-grantees expending less than $300,000 per year merit
     being audited based on the cumulative amount of multi-year awards or other
     risk factors.

•    USAID/Guatemala has agreements with two associations of ministers from
     Central American countries. USAID has not issued policy defining
     interaction between USAID and this type of group. The mission should
     document its current operating practices and receive policy clarification from
     USAID.

•    Site visits are an integral part of USAID/Guatemala’s monitoring plan.
     Although activity managers make frequent field visits, sites to be visited are
     not selected based on a field visit strategy. USAID/Guatemala could enhance
     the effectiveness of their monitoring and data verification activities by
     documenting field visit strategies.

•    P.L. 480 Title II (Food Aid) activities are significant in Guatemala. Presently,
     the mission personnel monitor the function through periodic site visits as
     described in the preceding bullet. USAID/Guatemala should consider
     whether the current level of monitoring sufficiently reduces function risks.




                                                                                  12
             •     Information systems security and disaster recovery/contingency plans have
                   been completed. However, they need to be updated to reflect changes in the
                   operating environment.

             •     USAID/Guatemala analyzes the month-to-month changes in vehicle
                   performance and operating cost. The mission could benefit by performing a
                   12-month analysis of vehicle performance and operating cost to identify
                   changes in performance.


Conclusion   In this review, we assigned a risk exposure judgement of high, moderate, or low to
             each major function. The risk assignments are summarized in the following table.

                                                              Risk Exposure
                         Function Description           High    Moderate    Low
                                   Bilateral Program Functions
                 Democracy
                                                              9
                 Education
                                                                          9
                 Health
                                                                          9
                 Income
                                                              9
                 Environment
                                                                                     9
                                      Regional Program Functions
                 Environment
                                                                          9
                 Trade (Competitiveness)
                                                                                     9
                 HIV/AIDS
                                                                          9
                                        Administrative Functions
                 Contracting Office
                                                                                     9
                 Program Office
                                                                                     9
                 Executive Office
                                                                          9
                 Financial Management Office
                                                                                     9

                                                                                             13
A higher risk exposure judgement implies that the program objectives for a
particular function are more vulnerable to not being achieved or to experiencing
irregularities. Appendix I describes in detail our risk assessment’s scope and
methodology.




                                                                                   14
                                                                                    Appendix I


Scope and     Scope
Methodology
              The Regional Inspector General/San Salvador conducted a risk assessment of
              major functions within USAID/Guatemala. The risk assessment considered
              operations principally for fiscal year 2002. The risk assessment was conducted at
              USAID/Guatemala from June 11 – 19, 2002.

              Methodology

              We interviewed mission officials as well as reviewed related documentation of
              major functions performed by USAID/Guatemala. These documents covered
              background, organization, management, budget, staffing responsibilities, and
              prior reviews. Our review of USAID/Guatemala documentation was isolated and
              judgmental in nature and was conducted principally to confirm management
              statements.

              We identified USAID/Guatemala’s major functions based on input from the
              Mission Director, discussions with mission staff, and review of mission reports.
              We judged risk exposure (e.g., the likelihood of significant abuse, illegal acts,
              and/or misuse of resources, failure to achieve program objectives, and
              noncompliance with laws, regulations and management policies) for those major
              functions. We assessed overall risk exposure as high, moderate, or low. A higher
              risk exposure simply indicates that the particular function is more vulnerable to
              not achieving its program objectives or to experiencing irregularities. We
              considered the following key steps in assessing risk exposure:

              1. determined significance and sensitivity;

              2. evaluated susceptibility (inherent risk) of failure to attain program goals,
                 noncompliance with laws and regulations, inaccurate reporting, or illegal or
                 inappropriate use of assets or resources;

              3. were alert to "red flags” such as a history of improper administration or
                 material weaknesses identified in prior audits/internal control assessments,
                 poorly defined and documented internal control procedures, or high rate of
                 personnel turnover;

              4. considered management support and the control environment;

              5. considered competence and adequacy of staffing;

              6. identified and understood relevant internal controls; and

              7. determined what was already known about internal control effectiveness.



                                                                                                15
                                                                         Appendix I


These risk exposure assessments were not sufficient to make definitive
determinations of the effectiveness of internal controls for major functions. As
part of the scope of our review, we (a) identified, understood, and documented
(only as necessary) relevant internal controls and (b) determined what was already
known about the effectiveness of internal controls.

Our risk assessment of USAID/Guatemala’s major functions has the following
limitations in their application.

•   First, we assessed risk exposure at the major function level only.

•   Second, we only assessed risk exposure. Our assessments were not sufficient
    to make definitive determinations of the effectiveness of internal controls for
    major functions. Consequently, we did not (a) assess the adequacy of internal
    control design, (b) determine if controls were properly implemented, nor (c)
    determine if transactions were properly documented.

•   Third, higher risk exposure assessments are not definitive indicators that
    program objectives were not being achieved or that irregularities were
    occurring. A higher risk exposure simply implies that the particular function
    is more vulnerable to such events.

•   Fourth, risk exposure assessments, in isolation, are not an indicator of
    management capability due to the fact that the assessments consider both
    internal and external factors, some being outside the span of control of
    management.

•   Fifth, comparison of risk exposure assessments between organizational units
    is of limited usefulness due to the fact that the assessments consider both
    internal and external factors.




                                                                                 16
                                                                                         Appendix II


Management
Comments                                                              UNITED STATES GOVERNMENT

                                                                      Memorandum


    DATE:      August 29, 2002

    From:      Deborah Kennedy-Iraheta
               Acting USAID/G-CAP Director

    TO:        Timothy E. Cox
               Regional Inspector General/San Salvador

    SUBJECT:   Risk Assessment of Major Functions Within USAID/G-CAP (Report No. 1-520-02-xxx-S)


               Mission Management has reviewed subject draft report and generally agrees with
               its content. On Aug. 22 and Aug. 29, however, the Mission provided via e-mail
               various suggestions for your consideration in preparing the final version of the
               report.

               As mentioned at the exit conference, USAID/G-CAP has and will continue to
               look for ways to ensure the lowest risk exposure for its large and complex
               bilateral and regional portfolios. In fact, the Mission has already begun
               addressing the suggestions you have made in your report. These efforts will be
               further strengthened through implementation of a comprehensive and
               participatory FY-2002 Management Control Assessment.

               We thank you for the usefulness and timing of your assessment, and the
               professionalism of RIG/SS auditors in it performance. I make myself and our
               staff available for any additional consultations you may need as you finalize the
               report.




                                                                                                   17
